GR-90-98-037
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs 
Service, Training, Officers, and Prosecution
Formula Grant to the South Puget Intertribal Planning Agency
Grant No. 95-WI-NX-0013
 
GR-90-98-037
December 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of a grant number 95-WI-NX-0013, awarded by the U.S. Department of Justice (DOJ),
Office of Justice Programs to the South Puget Intertribal Planning Agency (SPIPA). The
SPIPA received a grant and two supplement awards for a total of $165,985 to implement
training programs for judicial, law enforcement, substance abuse and social services
staff. The grant project period was September 30, 1995 through September 29, 1998. The
purpose of the Services, Training, Officers and Prosecution (STOP) formula grants program
is to develop or enhance tribal structure in order to combat violent crimes committed
against Indian women.
Our audit concentrated on, but was not limited to, the period September 30, 1995
through July 28, 1998. We tested the accuracy and reliability of the SPIPAs accounting
system, reviewed the general ledger, and evaluated the allowability, allocability and
reasonableness of costs.
For purposes of review, we used the Office of Management and Budget (OMB) Circular
A-110, Grants and Agreements with Institutions of Higher Education and Other
Nonprofit Institutions OMB Circular A-122, Cost Principles for Nonprofit
Organizations the OJP Financial Guide for the Administration of Grants; and OJP
Guideline Manual M7100.1D, Financial and Administrative Guide for Grants.

In brief, our audit determined the SPIPA violated the following grant conditions:



The SPIPA charged unallowable costs for travel and miscellaneous purchases totaling
      $3,858 to the STOP grant.




The SPIPA generally was not in compliance with grant reporting requirements. One
      Financial Status Report was not submitted, and three were not timely submitted. The
      semiannual progress reports for 1997 were not submitted. In addition, discrepancies found
      between the Financial Status Reports and accounting records could not be reconciled.


These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####